2311 Douglas Street
Omaha, Nebraska 68102-1214

4
|
COCKL E s E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No

KAROLYN GIVENS, ET AL.,
Petitioners,

v.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of July, 2019, send out from
Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RYAN P. BATES CHRISTOPHER S. JOHNS
BATES PLLC Counsel of Record
919 Congress Avenue CHRISTEN MASON HEBERT
Suite 750 JOHNS & COUNSEL PLLC
Austin, Texas 78701 14101 Highway 290 West
512-694-5268 Suite 400A
rbates@batesplic.com Austin, Texas 78737

512-399-3150
cjohns@johnsandcounsel.com

Counsel for Petitioners

Subscribed and sworn to before me this 3rd day of. July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : y A Chih,
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38030
Attorneys for Respondent Mountain Valley Pipeline, LLC

Nicolle R. Snyder Bagnell
Counsel of Record

Colin E. Wrabley

Reed Smith LLP

Reed Smith Centre

225 Fifth Avenue

Pittsburgh, Pennsylvania 15222

412-288-3131

nbagnell@reedsmith.com
